OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST BANK
AND GAZA’S ASSISTANCE TO
AL-QUDS UNIVERSITY, THE
ISLAMIC UNIVERSITY IN GAZA,
AND AMERICAN NEAR EAST
REFUGEE AID
AUDIT REPORT NO. 6-294-08-002-P
DECEMBER 10, 2007




CAIRO, EGYPT
Office of Inspector General


December 10, 2007

MEMORANDUM

TO:            USAID/West Bank and Gaza Director, Howard Sumka

FROM:          Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:       Audit of USAID/West Bank and Gaza’s Assistance to Al-Quds University, the
               Islamic University in Gaza, and American Near East Refugee Aid
               (Report No. 6-294-08-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have incorporated them where appropriate.
We have included your comments in their entirety as appendix II. This report does not include
any recommendations to USAID/West Bank and Gaza.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

     Audit Objective ............................................................................................................ 6

Audit Findings ................................................................................................................. 7

Has USAID/West Bank and Gaza provided U.S. assistance to Al-Quds University, the
Islamic University in Gaza, and American Near East Refugee Aid in accordance with
applicable Federal laws, Executive Order 13224, and USAID policies?

     Subawardees Were Not Always Vetted ...................................................................... 9

     Antiterrorism Certifications Were Not Always Obtained ............................................ 12

     Required Clauses Were Not Always Included in Awards and Subawards................ 14

     Review of Six Statements Reported in the Washington Times ................................. 16

Evaluation of Management Comments ....................................................................... 20

Appendix I—Scope and Methodology......................................................................... 21

Appendix II—Management Comments........................................................................ 25

Appendix III—List of Subawards for Al-Quds University .......................................... 29

Appendix IV—List of Subawards for Islamic University In Gaza.............................. 31

Appendix V—List of Awards and
Subawards for American Near East Refugee Aid ...................................................... 33
SUMMARY OF RESULTS
The Regional Inspector General in Cairo, Egypt, conducted this audit in response to
congressional and USAID concerns that funds were being provided to organizations that
support terrorism, as reported in a March 5, 2007, Washington Times article entitled
“School Linked to Hamas Gets U.S. Cash” (see page 3). The article referenced Al-Quds
University, the Islamic University in Gaza, and American Near East Refugee Aid, stating,
in part:

       Millions of dollars in U.S. foreign aid have been given in the past several
       years to two Palestinian universities -- one of them controlled by Hamas --
       that have participated in the advocacy, support or glorification of
       terrorism. The funding -- principally in scholarships to individual students
       -- is being eyed by several members of Congress and their aides, who
       say it may violate U.S. law.

The audit’s purpose was to determine whether USAID’s mission to West Bank Gaza
(USAID/West Bank and Gaza) provided U.S. assistance to Al-Quds University, the
Islamic University in Gaza, and American Near East Refugee Aid in accordance with
applicable Federal laws, Executive Order 13224, and USAID policies (see page 6).

Since 2002, USAID/West Bank and Gaza has provided the following assistance:

   •   Al-Quds University—13 subawards for approximately $3 million.
   •   Islamic University in Gaza—16 subawards for approximately $900,000.
   •   American Near East Refugee Aid—10 awards (5 prime awards and
       5 subawards) for approximately $27 million (see pages 4 and 5).

Since fiscal year 2003, congressional appropriation acts have required the Secretary of
State to take all appropriate steps to ensure that, within the West Bank and Gaza, U.S.
assistance is not provided to or through any individual, private or government entity, or
educational institution that the Secretary knows or has reason to believe advocates,
plans, sponsors, engages in, or has engaged in, terrorist activity. In addition to the
legislative requirements, President Bush issued Executive Order 13224 – Blocking
Property and Prohibiting Transactions With Persons Who Commit, Threaten To Commit,
or Support Terrorism, which became effective on September 24, 2001. The Executive
order prohibited transactions with, and provision of support for, individuals or entities
listed in or subject to the directive (see page 3).

The audit determined that USAID/West Bank and Gaza did not always follow applicable
Federal laws, regulations, or USAID policies when providing assistance to Al-Quds
University, the Islamic University in Gaza, and American Near East Refugee Aid.
However, 21 of 23 cases of noncompliance that we identified took place between 2003
and 2005, prior to the implementation of current USAID policies that address these
issues. Our determinations were based upon the three mechanisms the mission used to
implement the law: (1) vetting of organizations and individuals, (2) certifications from
organizations that they will not provide support for terrorism, and (3) required clauses in
contracts, grants, and cooperative agreements (see page 7). Specifically, our review found
that:


                                                                                         1
    •   Vetting was not conducted in 2 of 17 required instances (2003);
    •   Certifications were not obtained in 3 of 14 required instances (2003 and 2004);
    •   The “prohibition against support for terrorism” clause was not included in 16 of 35
        applicable agreements (2003, 2004, and 2005); and
    •   The “restriction on naming facility” clause was not included in 2 of 9 applicable
        agreements (2006) (see page 7).

USAID/West Bank and Gaza did not vet American Near East Refugee Aid because it is
a U.S.-based organization. For the time periods covered by this audit, USAID did not vet
U.S.-based organizations. Since 2002, USAID/West Bank and Gaza have arranged to
have Al-Quds University vetted seven times and Islamic University in Gaza vetted eight
times. The vetting did not reveal information that would preclude the awards from
proceeding (see page 5).

The audit also reviewed six specific statements in the March 5, 2007, edition of the
Washington Times article concerning Al-Quds University, the Islamic University in Gaza,
and American Near East refugee Aid. The audit results are explained in detail beginning
on page 16.

Concurrent with this audit, we also conducted an audit of USAID/West Bank and Gaza’s
implementation of Executive Order 13224—Blocking Property And Prohibiting
Transactions With Persons Who Commit, Threaten To Commit Or Support Terrorism. 1
We made three recommendations in that report:

    •   USAID/West Bank and Gaza should establish procedures to ensure compliance
        with existing policy that all subawardees are vetted.

    •   USAID/West Bank and Gaza should establish procedures to ensure compliance
        with existing policy that contractors and subcontractors are vetted if they receive
        contracts or subcontracts over any 12-month period that cumulatively total more
        than $25,000.

    •   In addition to the controls for vetting, the mission should also clarify how
        antiterrorism provisions apply to assistance-related purchase orders.

As stated earlier, we determined that USAID/West Bank and Gaza did not always follow
applicable Federal laws, regulations, or USAID policies when providing assistance to
Al-Quds University, the Islamic University in Gaza, and American Near East Refugee
Aid. However, we are not making any recommendations here because doing so would
be duplicitous of the recommendations made in the audit of USAID/West Bank and
Gaza’s implementation of Executive Order 13224.

USAID/West Bank and Gaza accepted the factual findings of the draft report for this
audit and has taken action, as noted in USAID OIG Audit Report No. 6-294-08-001-P, to
improve monitoring and oversight of its awardees. USAID/West Bank and Gaza
provided clarification on some report statements (see pages 20 and 25).
1
  USAID OIG Audit Report No. 6-294-08-001-P, “Audit Of USAID/West Bank and Gaza’s
Implementation Of Executive Order 13224⎯Blocking Property And Prohibiting Transactions With
Persons Who Commit, Threaten to Commit, Or Support Terrorism.”


                                                                                         2
BACKGROUND
On March 5, 2007, the Washington Times included an article entitled, “School Linked to
Hamas Gets U.S. Cash.” The first two sentences in the article stated:

   Millions of dollars in U.S. foreign aid have been given in the past several years
   to two Palestinian universities -- one of them controlled by Hamas -- that have
   participated in the advocacy, support or glorification of terrorism. The funding -
   - principally in scholarships to individual students -- is being eyed by several
   members of Congress and their aides, who say it may violate U.S. law.

Section 559, paragraphs (b) and (c), of the fiscal year 2006 Foreign Operations
Appropriations Act stated the following:

   (b) VETTING – Prior to the obligation of funds appropriated by this Act under
   the heading “Economic Support Fund” for assistance for the West Bank and
   Gaza, the Secretary of State shall take all appropriate steps to ensure that
   such assistance is not provided to or through any individual, private or
   government entity, or educational institution that the Secretary knows or has
   reason to believe advocates, plans, sponsors, engages in, or has engaged in,
   terrorist activity. The Secretary of State shall, as appropriate, establish
   procedures specifying the steps to be taken in carrying out this subsection
   and shall terminate assistance to any individual, entity, or educational
   institution which he has determined to be involved in or advocating terrorist
   activity.

   (c) PROHIBITION – None of the funds appropriated by this Act for assistance
   under the West Bank and Gaza program may be made available for the
   purpose of recognizing or otherwise honoring individuals who commit, or
   have committed, acts of terrorism.

Provisions similar to paragraph (b) have appeared in each foreign operations
appropriations act since fiscal year 2003. Paragraph (c) was added in fiscal year 2005.
Provisions similar to paragraphs (b) and (c) were included in the Palestinian
Anti-Terrorism Act of 2006 (P.L. 109-446), extending the requirements through fiscal
years 2007 and 2008.

Following the events of September 11, 2001, the President Bush issued Executive Order
13224 – Blocking Property and Prohibiting Transactions With Persons Who Commit,
Threaten To Commit, or Support Terrorism, which became effective on September 24,
2001. Executive Order 13224 designated certain individuals and entities that commit or
pose a significant risk of committing terrorist acts. The Executive order also authorized
both the Secretary of State and the Secretary of Treasury to identify additional
individuals and entities. The Executive order prohibited transactions with, and provision
of support for, individuals or entities listed in or subject to the directive.

Since the September 2001 Executive order, USAID/West Bank and Gaza has issued
several notices to USAID contractors and grantees to implement mission policies and




                                                                                        3
procedures to comply with the order. Two of these notices were comprehensive and
provided the principal guidance to USAID contractors and grantees.

      •   In August 2003, USAID/West Bank and Gaza issued its first comprehensive
          policy for vetting, certifications, and clauses.

      •   In March 2006, USAID/West Bank and Gaza issued Mission Order No. 21
          establishing the most recent comprehensive requirements for vetting,
          certifications, and clauses. Mission Order No. 21 superseded the August 2003
          mission guidance, providing updated criteria for when non-U.S. organizations
          and individuals were to be vetted for links to terrorism prior to the awarding of
          contracts, grants and cooperative agreements. The criteria to determine whether
          an organization required vetting included dollar thresholds for cumulative
          contracts, award types (contract, grant, cooperative agreement), and time since
          the organization was last vetted.

For both prime awards and subawards, USAID/West Bank and Gaza primarily
implemented this Executive order through three mechanisms:

      •   Vetting: Screening organizations and individuals to ensure that they are not
          affiliated with terrorism. The vetting process begins when a non-U.S. awardee
          submits information to the mission about itself and its key individuals. The mission
          records this information in a database and forwards it to U.S. officials in the U.S.
          Embassy in Tel Aviv, Israel, who were responsible for the vetting. In January 2007,
          the USAID Office of Security assumed the responsibility for vetting all
          non-U.S.-based West Bank and Gaza awardees.

      •   Certifications: Requiring organizations to certify that the organization does not
          provide material support or resources for terrorism before being awarded a grant or
          cooperative agreement by USAID.

      •   Clauses: Requiring clauses in awards and subawards which (1) remind contractors
          and recipients that U.S. Executive orders and U.S. law prohibit transactions with,
          and the provision of resources and support to, individuals and organizations
          associated with terrorism and (2) restrict the naming of facilities in honor of
          individuals who commit, or have committed, acts of terrorism.

In addition to the two Palestinian universities (Al-Quds University and the Islamic
University in Gaza), the article cited an American nongovernmental organization,
American Near East Refugee Aid, based in Washington, DC. USAID/West Bank and
Gaza has provided the following assistance to each of the three organizations since
2002. 2

      •   Al-Quds University (located in Jerusalem) received 13 subawards (from 7
          different USAID prime recipients) for approximately $3 million, of which 10 were
          awarded prior to 2006.




2
    See appendix III, appendix IV, and appendix V for the lists of awards.


                                                                                            4
   •   Islamic University in Gaza received 16 subawards (from 8 different USAID prime
       recipients) for approximately $900,000, of which 14 were awarded prior to 2006.

   •   American Near East Refugee Aid received 10 awards (5 prime awards and
       5 subawards) for approximately $27 million.


                           Maps of West Bank and Gaza




During this time period, USAID/West Bank and Gaza arranged to have Al-Quds
University vetted seven times (most recently in December 2006) and Islamic University
in Gaza vetted eight times (most recently in February 2006). None of these vetting
requests resulted in derogatory information. USAID/West Bank and Gaza did not
arrange to vet American Near East Refugee Aid because it is a U.S.-based organization.




                                                                                    5
According to the mission, in cases where a prime awardee does not follow its
responsibilities to ensure that vetting is done, certifications are collected, or mandatory
clauses are included in subawards, the mission has several potential methods of
recourse to ensure corrective action. The corrective action would depend on the facts
and circumstances in each case and could include any of the following:

   •   Suspension of assistance to the subawardee until corrective action is taken.

   •   Termination of assistance to the subawardee.

   •   Refund of all or some of expended monies.

   •   Termination of the prime award.


AUDIT OBJECTIVE
We conducted this audit in response to congressional and USAID concerns that funds
were being provided to organizations that support terrorism as reported in a March 5,
2007, Washington Times article. We conducted this audit to answer the following
question:

   •   Has USAID/West Bank and Gaza provided U.S. assistance to Al-Quds
       University, the Islamic University in Gaza, and American Near East Refugee Aid
       in accordance with applicable Federal laws, Executive Order 13224, and USAID
       policies?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         6
AUDIT FINDINGS
USAID/West Bank and Gaza did not always follow applicable Federal laws, Executive
Order 13224, or USAID policies when providing assistance to Al-Quds University, the
Islamic University in Gaza, and American Near East Refugee Aid. However, 21 of 23
cases of noncompliance that we identified took place between 2003 and 2005, prior to
the implementation of current USAID policies that address these issues.

Our determinations were based upon a review of the three mechanisms the mission
used to implement the law for both prime awards and subawards: (1) “vetting” or
screening organizations and individuals, (2) requiring organizations to certify that the
organization does not provide support for terrorism, and (3) including antiterrorism clauses
in awards and subawards. Specifically, as discussed in detail in the following sections,
our audit found that:

   •   Vetting was not conducted in 2 of 17 required instances (2003);

   •   Certifications were not obtained in 3 of 14 required instances (2003 and 2004);

   •   The “prohibition against support for terrorism” clause was not included in 16 of 35
       applicable agreements (2003, 2004, and 2005); and

   •   The “restriction on naming facility” clause was not included in 2 of 9 applicable
       agreements (2006).

In addition, we reviewed six statements regarding three organizations reported in the
March 5, 2007, edition of the Washington Times as follows.

   (1) “USAID has provided more than $140,000 in assistance to the Hamas-controlled
       Islamic University in Gaza.”

   (2) USAID has provided more than $140,000 in assistance to the Hamas-controlled
       Islamic University in Gaza—“including scholarships to 49 of its students.”

   (3) “USAID continues to fund multimillion-dollar programs through American Near
       East Refugee Aid (ANERA), which is building a high-tech facility for the school.”

   (4) “USAID also gave $2.3 million in aid last year to Al-Quds University, which has
       student groups affiliated with designated terrorist organizations on campus and
       last month held a week-long celebration of the man credited with designing and
       building the first suicide belts more than a decade ago.”

   (5) “It (USAID) provided $12,000 worth of computers and materials to the school’s
       (Islamic University in Gaza) library.”

   (6) “Unlike other U.S. aid recipients, the scholarship students have not been required
       to sign pledges not to participate in terrorism.”




                                                                                          7
                    Location of Al-Quds University in the West Bank




                                                                          Al-Quds
                                                                         University




Concurrent with this audit, the Regional Inspector General/Cairo also audited
USAID/West Bank and Gaza’s implementation of policies, procedures and controls to
comply with Executive Order 13224 (No. 6-294-08-001-P). As part of that audit’s
fieldwork, the team tested recent awards from two different samples covering more than
just the three organizations. Based on the audit fieldwork examining recent time periods,
we determined that the mission has currently implemented policies, procedures, and
controls to comply with the Executive order.

Our opinion was based on an evaluation of the mission’s (1) compliance with obtaining
antiterrorism certifications from contractors and grantees, (2) compliance with the
inclusion of mandatory antiterrorism clauses in contracts and grants, (3) the correction of
vetting database deficiencies previously identified, and (4) compliance with required
vetting of organizations and individuals.          The concurrent audit made two
recommendations to strengthen the effectiveness of mission controls to ensure that
vetting is conducted. As a result, we did not include any recommendations to
USAID/West Bank and Gaza within this audit report.




                                                                                         8
                        Location of Islamic University of Gaza



                                                                          Islamic
                                                                         University
                                                                          of Gaza




Subawardees Were Not Always Vetted

 Summary: Though required by law and mission procedures, USAID/West Bank and
 Gaza did not perform vetting for two 2003 subawards—one provided to the Islamic
 University in Gaza and one provided to Al-Quds University. Given the time lapse
 since 2003 for both cases, we did not determine the reasons for the missing vetting.
 In our concurrent audit report (No. 6-294-08-001-P) examining current mission
 procedures, we reported that USAID/West Bank and Gaza did not vet 2 of 26 prime
 awardees and subawards in accordance with mission vetting procedures. As a
 result of these cases, in report no. 6-294-08-001-P we made two recommendations
 to USAID/West Bank and Gaza to strengthen procedures to ensure that vetting is
 conducted.     Without these additional control procedures, the mission could
 inadvertently provide support to entities or individuals associated with terrorism.

The Consolidated Appropriations Resolution, 2003, and subsequent appropriations acts
have required vetting to ensure that U.S. assistance is not provided to support terrorist
activity. USAID/West Bank and Gaza has issued several notices to USAID contractors
and grantees. Two of these notices were comprehensive and provided the principal
guidance to USAID contractors and grantees.

   •   In August 2003, USAID/West Bank and Gaza issued its first comprehensive
       policy for vetting.



                                                                                        9
   •   In March 2006, USAID/West Bank and Gaza issued Mission Order No. 21
       establishing the most recent comprehensive requirements for vetting. This order
       superseded 2003 mission guidance and provided updated criteria for when
       non-U.S. organizations and individuals are to be vetted for links to terrorism prior
       to the awarding of contracts, grants, and cooperative agreements. The criteria to
       determine whether an organization required vetting includes dollar thresholds for
       cumulative contracts, award types (contract, grant, or cooperative agreement),
       and time since the organization was last vetted. Therefore, mission policy did not
       require vetting of all awards to the Islamic University in Gaza and Al-Quds
       University.


            Photograph of the Al-Quds University Campus in Jerusalem
                      Source: USAID/West Bank and Gaza




Table 1 illustrates the results of our review for these three organizations against the
criteria in effect at the time of awards. The mission did not conduct the required vetting
for one of nine subawards for the Islamic University in Gaza and one of eight subawards
for Al-Quds University. The mission was not required to perform vetting for American
Near East Refugee Aid (ANERA) because it was a U.S.-based entity and did not do so.
The two instances of missing vetting were for 2003 subawards. Given the time lapse
since 2003, we did not determine the reasons for the missing vetting.




                                                                                        10
Table 1: Vetting of Awards and Subawards by USAID/West Bank and Gaza for the
           Islamic University in Gaza, Al-Quds University, and ANERA

                                      Islamic University     Al-Quds
                                                                          ANERA      Totals
                                           in Gaza          University
    Total Awards and Subawards                16                13           10        39
    Vetting Not Required                       7                 5           10        22
    Required Vetting Conducted                 8                 7            0        15
    Required Vetting Not Conducted             1                 1            0         2


In our concurrent Federal audit report (No. 6-294-08-001-P) examining current mission
procedures and organizations, we reported that USAID/West Bank and Gaza did not vet
2 of 26 other prime awardees and subawards in accordance with mission vetting
procedures. 3 As a result of these cases, we recommended that USAID/West Bank and
Gaza (1) establish procedures to ensure compliance with existing policy that all
subawardees are vetted and (2) establish procedures to ensure compliance with existing
policy that contractors and subcontractors are vetted if they receive contracts or
subcontracts over any 12-month time period that cumulatively total more than $25,000.
Without these additional controls, the mission could inadvertently provide support to
entities or individuals associated with terrorism. Therefore, we are not making a
recommendation in this report.


           Photograph of the Islamic University in Gaza Campus in Gaza City
                  Source: Website for the Islamic University in Gaza




3
  The two incidences of non-vetting reported in USAID OIG Audit Report No. 6-294-08-001-P are
in addition to the two incidences of non-vetting reported in this audit report.


                                                                                            11
Antiterrorism Certifications Were Not Always Obtained

    Summary: According to USAID Acquisition and Assistance policy directives, U.S.
    and non-U.S. organizations are required to certify, before being awarded a grant or
    cooperative agreement, that the organization does not provide support for terrorism.
    The mission issued guidance for certifications in August 2003 and March 2006
    which applied to recipients of grants and cooperative agreements. USAID/West
    Bank and Gaza’s prime recipients did not obtain antiterrorism certifications for three
    of nine subawards to the Islamic University in Gaza and Al-Quds University. The
    missing certifications were for subawards in 2003 and 2004.
    In September 2006, the Government Accountability Office (GAO) reported that
    USAID/West Bank and Gaza did not have a process to verify that prime awardees
    collected antiterrorism certifications from subgrantees. 4              Consequently,
    subawardees may not have been aware of nor reconfirmed that they would not
    provide resources to any individual or entity that supports terrorist activity. In
    October 2006, USAID/West Bank and Gaza implemented a new process to ensure
    that for subawards, the mission received the antiterrorism certifications. Our review
    of these new procedures showed that they were working, and, consequently, we are
    not making a recommendation.



USAID issued Acquisition and Assistance policy directives 02-19 and 04-14 in
December 2002 and September 2004, respectively, requiring all U.S. and non-U.S.
nongovernmental organizations to certify before being awarded a grant or cooperative
agreement that the organization does not provide material support or resources for
terrorism. The mission issued implementing guidance for these certifications in August
2003 and March 2006. This certification applied to recipients of grants and cooperative
agreements. The 2006 guidance clarified that certifications were not required for
individuals, public international organizations, the host government, contractors, and
subcontractors.

Table 2 illustrates the results of our review for these three organizations against the
criteria in effect at the time of awards. The mission’s prime recipient did not obtain the
required certifications for two of five awards for the Islamic University in Gaza and one of
four awards for the Al-Quds University. The mission did obtain the required certifications
for the 5 applicable awards for American Near East Refugee Aid (ANERA). The three
instances of missing certifications were for awards in 2003 and 2004. Given the time
lapse since 2004, we did not determine the reasons for the missing certifications.




4
  Government Accountability Office, “Foreign Assistance: Recent Improvements Made, but
USAID Should Do More to Help Ensure Aid Is Not Provided for Terrorist Activities in West Bank
and Gaza” (GAO-06-1062R, September 29, 2006).



                                                                                             12
  Table 2: Certifications Received by USAID/West Bank and Gaza for the Islamic
                      University in Gaza, Al-Quds University, and ANERA

                                          Islamic
                                                          Al-Quds
                                        University in                  ANERA     Totals
                                                         University
                                           Gaza
 Total Awards and Subawards                  16              13           10       39
 Certification Not Required                  11              9            5        25
 Required Certification Obtained              3              3            5        11
 Required Certification Not Obtained          2              1            0         3

In September 2006, GAO reported that USAID/West Bank and Gaza did not have a
process to verify that prime awardees collected antiterrorism certifications from
subgrantees (GAO-06-1062R). Consequently, subawardees may not have been aware
of nor reconfirmed that they would not provide resources to any individual or entity that
engages in or supports terrorist activity.

As a result of the GAO report, in October 2006 USAID/West Bank and Gaza
implemented a new process to ensure that for subawards, the mission received copies
of required antiterrorism certifications and mandatory clauses. On a monthly basis, the
mission requires prime recipients to submit a monthly listing of all new subawards to the
Office of Contracts Management along with copies of the antiterrorism certifications and
required clauses. The Office of Contracts Management reviews the documents to
ensure that they comply with mission requirements for antiterrorism certifications and
required clauses.

In order to test the effectiveness of these new procedures, we reviewed 89 subawards
(from a universe of 204) with award start dates from January 1 through April 29, 2007.
For the 89 subawards, 15 required antiterrorism certifications, and all had the
appropriate documentation. Given the results of our audit review of the new mission
procedures, we are not making a recommendation.




                                                                                        13
Required Clauses Were Not Always Included In Awards and
Subawards

   Summary: In accordance with legislative requirements, USAID/West Bank and
   Gaza included two different antiterrorism clauses within its awards and
   subawards.

   •   The first is an antiterrorism clause. It is intended to appraise awardees of
       their contractual responsibility to comply with executive orders and laws that
       prohibit transactions with, and provision of resources and support to,
       individuals and organizations associated with terrorism.

   •   The second is a “naming clause.” It prohibited the use of assistance to
       recognize or honor individuals by name who commit, or have committed, acts
       of terrorism.

   For the majority of subawards to the Islamic University in Gaza and the Al-Quds
   University, the antiterrorism clause was missing. Of the 29 subawards to the
   Islamic University in Gaza and Al-Quds University, 25 took place before the
   second required clause (the naming clause) was required. According to a 2006
   GAO report (GAO-06-1062R), the mission did not have a process to verify that
   prime awardees included the required clauses in subawards. As a result, some
   prime awardees and subawardees may not have been aware of their
   responsibilities outlined within these clauses.

   In October 2006, USAID/West Bank and Gaza implemented a new process to
   ensure that subawards included the necessary antiterrorism clauses. Our
   concurrent audit (No. 6-294-08-001-P) reviewed these new procedures and
   showed that they were working; consequently, we are not making a
   recommendation.


To implement Executive Order 13224 and the antiterrorism provisions in the various
laws, USAID has issued several Acquisition and Assistance policy directives since 2002
that require an antiterrorism clause in all USAID awards. The antiterrorism clause
applied to all prime awardees and subawardees. It is intended to familiarize recipients
with Executive Order 13224 and apprise them of their contractual responsibility to
comply with executive orders and laws that prohibit transactions with, and provision of
resources and support to, individuals and organizations associated with terrorism.

Table 3 illustrates the results of our review of applicable awards and subawards to the
Islamic University in Gaza, Al-Quds University, and American Near East Refugee Aid
(ANERA). Mission awards did not include the required clause in 7 of 13 subawards for
the Islamic University in Gaza, 7 of 13 subawards for the Al-Quds University, and 2 of 9
awards and subawards for ANERA.




                                                                                        14
 Table 3: Clause—Prohibition Against Support for Terrorism in USAID/West Bank
             and Gaza Awards and Subawards for the Islamic University in Gaza,
                             Al-Quds University, and ANERA


                                   Islamic University     Al-Quds
                                                                       ANERA    Totals
                                        In Gaza          University
Total Awards and Subawards                 16                13         10        39
Clause Not Required                        3                 0          1          4
Required Clause Included                   6                 6          7         19
Required Clause Not Included                7                 7         2         16


According to the mission, the “naming” clause was required in all prime awards initiated
after December 2004. A provision was included in the 2005 appropriations law
prohibiting the use of assistance to recognize or honor individuals who commit, or have
committed, acts of terrorism. Subsequently, the mission’s March 2006 guidance
(Mission Order No. 21) extended this “naming” clause requirement to all subawards. Of
the 29 subawards to the Islamic University in Gaza and Al-Quds University, 25 took
place before the clause was required.

Table 4 illustrates the results of our review of applicable awards and subawards to the
Islamic University in Gaza, Al-Quds University, and ANERA. The mission awards did
not include the required clause in 1 of 2 subawards for the Islamic University in Gaza
and 1 of 2 subawards for the Al-Quds University. The mission did include the required
clause for the 5 applicable awards and subawards for ANERA.

  Table 4: Clause—Restriction on Naming Facility in USAID/West Bank and Gaza
             Awards and Subawards for the Islamic University in Gaza, Al-Quds
                                 University, and ANERA

                                 Islamic University      Al-Quds
                                                                      ANERA    Totals
                                      In Gaza           University
Total Awards and Subawards                        16            13       10            39
Clause Not Required                               14            11        5            30
Required Clause Included                           1             1        5             7
Required Clause Not Included                       1             1        0             2

In September 2006, GAO reported (GAO-06-1062R) that USAID/West Bank and Gaza
did not have a process to verify that prime awardees included the required clauses in
subawards. As a result, some prime awardees and subawardees may not have been
aware of their responsibilities within these clauses.

In October 2006, USAID/West Bank and Gaza implemented a new process to ensure
that for subawards, the mission received copies of required antiterrorism certifications
and mandatory clauses. On a monthly basis, the mission required prime recipients to
submit a listing of all new subawards to the Office of Contracts Management along with
copies of the antiterrorism certifications and contract clauses. The Office of Contracts
Management reviews the documents to ensure that they comply with mission
requirements for antiterrorism certifications and contract clauses. In order to test the


                                                                                       15
effectiveness of these new procedures, in our concurrent audit (No. 6-294-08-001-P)
looking at awards and subawards beyond our three organizations, we reviewed 89
subawards (from a universe of 204) with award start dates from January 1 through April
29, 2007. For the 89 subawards, 5 all required and appropriately included the mandatory
clauses. Given the results of our audit review of the new mission procedures, we are not
making a recommendation in this report to address the problems identified above with
the older awards.


Review of Six Statements Reported in the Washington Times
In addition to determining whether assistance to Al-Quds University, the Islamic
University in Gaza, and American Near East Refugee Aid was provided in accordance
with applicable Federal laws, Executive Order 13224, and USAID policies, we reviewed
concerns expressed in a March 5, 2007, article in the Washington Times entitled,
“School Linked to Hamas Gets U.S. Cash.” We reviewed six of the reported statements
in regard to these three organizations.




5
 None of these 89 subawards were provided to Al-Quds University, the Islamic University in
Gaza, or ANERA.


                                                                                       16
Table 5: Results of Review of Statements Reported in the March 5, 2007, Edition of
                              the Washington Times

     Reported Statement                                Review Result
    “USAID has provided          Since 2002, USAID/West Bank and Gaza has provided
    more than $140,000 in        funding for 16 subawards (from 8 different USAID prime
    assistance to the            recipients) for approximately $900,000 to the Islamic
    Hamas-controlled             University in Gaza, 14 of which were awarded prior to
    Islamic University in        2006. Also since 2002, USAID/West Bank and Gaza
    Gaza.”                       arranged to have the Islamic University in Gaza vetted
1                                eight times—most recently in February 2006. None of
                                 these vetting requests resulted in derogatory
                                 information. Of these 16 subawards, 2 subawards
                                 totaling approximately $87,000 were awarded after
                                 Hamas claimed a parliamentary majority in the election
                                 of January 2006. In each of these cases, vetting was
                                 conducted.
    USAID has provided           USAID funded, through the Academy for Educational
    more than $140,000 in        Development’s Higher Education Support Initiative, 49
    assistance to the            local scholarships valued at $93,000 to students of the
    Hamas-controlled             Islamic University in Gaza during the academic years
2   Islamic University in        from 2003 through 2005. USAID/West Bank and Gaza
    Gaza—“including              vetted 86 students of whom 49 received scholarships.
    scholarships to 49 of its    The Islamic University in Gaza was also vetted and
    students.”                   cleared for this award.

    “USAID continues to          USAID is not a participant in the project referred to in the
    fund multimillion-dollar     Washington Times article. According to mission
    programs through             information, the INTEL Corporation funded the creation
    American Near East           of an Information Technology Center of Excellence at
    Refugee Aid (ANERA),         the Islamic University in Gaza, and ANERA was involved
    which is building a          in the implementation of this project. USAID/West Bank
    high-tech facility for the   and Gaza has had an association with ANERA since
    school.”                     2002. ANERA is a U.S.-based non-governmental
                                 organization that was founded in 1968 and specializes in
                                 economic development, education, health and relief, and
3
                                 public education. Since 2002, USAID/West Bank and
                                 Gaza has funded 10 awards (5 prime awards and 5
                                 subawards) for approximately $27 million to ANERA.
                                 During this time period, USAID/West Bank and Gaza did
                                 not arrange to vet ANERA because it is a U.S.-based
                                 entity, and, therefore, not covered by mission policy
                                 which applies vetting to non-U.S. organizations. The
                                 mission did obtain the required certifications for the five
                                 applicable awards for American Near East Refugee Aid.




                                                                                           17
     Reported Statement                              Review Result
    “USAID also gave $2.3      USAID funded, through the Academy for Educational
    million in aid last year   Development’s Higher Education Support Initiative,
    to Al-Quds University,     approximately $2.3 million for the local scholarships of
    which has student          1,960 students and to pay the arrears for 894 students.
    groups affiliated with     The scholarship assistance took place in August and
    designated terrorist       September 2006. According to the mission, the arrears
    organizations on           were for students who could not pay their tuition for the
    campus and last month      previous academic year of 2005 because of economic
    held a week-long           hardships. The difficult political and economic situation
    celebration of the man     at that time impacted students who could no longer pay
    credited with designing    tuition fees and universities that could no longer pay staff
    and building the first     salaries. The breakdown of the $2.3 million was as
    suicide belts more than    follows.
    a decade ago.”
                               •   $1,849,692 covered scholarships to 1,960 students.
                                   The range of scholarships varied from $382 to
                                   $1,840, depending on the field of study, with arts
                                   being the least expensive and dentistry the most
4                                  expensive.
                               •   $426,894 covered arrears to 894 students who also
                                   received the scholarship. The range of arrears
                                   varied from $106 to $1,412.

                               The individual students were vetted as was the
                               organization, and no derogatory information was
                               reported. We could not verify if students associated with
                               these scholarships took part in the celebration identified
                               in the Washington Times article. Since 2002,
                               USAID/West Bank and Gaza has provided funding for 13
                               subawards (from 7 different USAID prime recipients) for
                               approximately $3 million to Al-Quds University. Ten of
                               the subawards were issued prior to 2006. Since 2002,
                               USAID/West Bank and Gaza has arranged to have
                               Al-Quds University vetted seven times, most recently in
                               December 2006. None of these vetting requests
                               resulted in derogatory information.




                                                                                         18
      Reported Statement                           Review Result
    “It (USAID) provided     USAID funded, through the Academy for Educational
    $12,000 worth of         Development’s Higher Education Support Initiative,
    computers and            $11,995 of assistance—$6,500 for five computers to the
    materials to the         university library and $5,455 for electronic journals
    school’s (Islamic        during 2005 and 2006. The $5,455 for electronic
    University in Gaza)      journals is in reference to a 1-year subscription to
5   library.”                Academic Search Premier of EBSCO Publishing, which
                             provides online access to a database of more than 4,000
                             academic journals. This assistance was part of a
                             bundled purchase for a consortium of 11 Palestinian
                             universities under the Higher Education Support Initiative
                             of the Academy for Educational Development.

    “Unlike other U.S. aid   USAID/West Bank and Gaza does not have a
    recipients, the          requirement for students to sign pledges. In addition,
    scholarship students     the mission is not aware of any awardees or
    have not been required   subawardees that require pledges. The mission does
6   to sign pledges not to   require antiterrorism certifications from organizations as
    participate in           a condition of receiving grants or cooperative
    terrorism.”              agreements.




                                                                                      19
EVALUATION OF
MANAGEMENT COMMENTS
In its response, USAID/West Bank and Gaza accepted the factual findings of the draft
report and has taken action, as noted in the companion Regional Inspector
General/Cairo audit report on the mission’s implementation of Executive Order 13224
(No. 6-294-08-001-P), to improve monitoring and oversight of its awardees. Even
though the report includes no recommendations, the mission believed that certain
findings and statements required further clarification. We considered each of the
mission’s comments and modified the final report as appropriate. In particular,
USAID/West Bank and Gaza noted that the required clause cited in the draft report—the
prohibition on cash assistance to the Palestinian Authority—was technically an
anticorruption measure and not an antiterrorism measure. We agree and dropped our
analysis of this required clause from the final report. USAID/West Bank and Gaza’s
comments are included in their entirety in appendix II.




                                                                                  20
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted Government auditing standards, performing the fieldwork for this audit at
USAID/West Bank and Gaza from April 29 to June 7, 2007. We conducted this audit in
response to congressional and USAID concerns that funds were being provided to
organizations that support terrorism as reported in a March 5, 2007, Washington Times
article. We conducted this audit to determine whether USAID/West Bank and Gaza
provided U.S. assistance to Al-Quds University, the Islamic University in Gaza, and
American Near East Refugee Aid (ANERA) in accordance with applicable Federal laws,
Executive Order 13224, and USAID policies. We did not determine whether the
organizations cited in the Washington Times article were terrorist organizations, were
controlled by terrorists, or were supporting terrorism. We did verify whether the
organizations were vetted in accordance with Executive Order 13224, and we relied
upon the outcome of the vetting results.

In planning and performing the audit, we assessed the effectiveness of the following
significant USAID/West Bank and Gaza controls for implementing Executive Order 13224
on terrorist financing:

•   Vetting:       Screening organizations and individuals to ensure that the organizations
                   or individuals are not affiliated with terrorism.

•   Certifications: Requiring organizations to certify that the organization does not provide
                    material support or resources for terrorism before being awarded a grant
                    or cooperative agreement by USAID.

•   Clauses:       Requiring clauses in awards and subawards which (1) remind
                   contractors and recipients that U.S. Executive orders and U.S. law
                   prohibit transactions with, and the provision of resources and support to,
                   individuals and organizations associated with terrorism and (2) restrict
                   the naming of facilities in honor of individuals who commit, or have
                   committed, acts of terrorism.

The audit examined all the subawards provided to Al-Quds University and the Islamic
University in Gaza and all prime awards and subawards provided to ANERA for the period
2001 through April 2007. In addition, we reviewed concerns expressed in a March 5,
2007, article in the Washington Times entitled, “School Linked to Hamas Gets U.S.
Cash.” Specifically, we reviewed six of the reported statements in regard to three
organizations.

Initially, our audit scope included 20 subawards to Al-Quds University. However, the
mission informed us that 7 of these 20 subawards were given to the Center for
Development in Primary Health Care (CDPHC) for approximately $800,000 between 2001
and 2006. CDPHC has an academic and professional relation with Al-Quds University⎯
including a memorandum of understanding⎯to enhance the university’s academic
credibility. USAID/West Bank and Gaza determined that CDPHC is a nongovernmental
organization that is administratively and financially independent of Al-Quds University.
Accordingly, we excluded the subawards to CDPHC within the section of our report

                                                                                          21
                                                                                    APPENDIX I

addressing Al-Quds University. If these seven subawards had been included, the results
would have been as follows:


       Table 6: Vetting Conducted, Certifications Received, and Required Clauses
         Included for USAID/West Bank and Gaza Subawards for the Center for
                      Development in Primary Health Care (CDPHC)


                            Antiterrorism      “Prohibition Against        “Restriction on
              Vetting
                            Certification     Support for Terrorism”       Naming Facility”
             Conducted
                             Obtained            Clause Included           Clause Included
     Total        7                7                      7                         7
      NA          2                3                      0                         5
     Yes          2                2                      3                         2
      No          3                2                      4                         0


For our concurrent audit report looking at current USAID/West Bank and Gaza
procedures (No. 6-294-08-001-P), we reviewed 89 subawards, from a universe of 204
subawards, with award start dates from January 1, 2007, through April 29, 2007. The
results of our review of the new mission procedures were the basis for not making
recommendations in this report.

We considered prior audit findings of the USAID OIG and GAO in planning and conducting
our work. 6

Methodology

To form a conclusion about the audit objective, the audit team examined mission
documents and interviewed mission staff including the USAID/West Bank and Gaza
Deputy Director, the Regional Legal Advisor, and contracting officers and staff. The
audit team also examined the history of the implementation of the mission polices and
procedures since Executive Order 13224 became effective on September 24, 2001. In
addition, the audit team examined (1) the mission’s vetting documentation and (2) and
procurement records to determine if antiterrorism certifications had been signed and
whether the required clauses were included in the awards and subawards.




6
    See the following USAID OIG and GAO reports:
      • Inspector General, “Survey of USAID/West Bank and Gaza’s Implementation of
          Executive Order 13224—Blocking Property and Prohibiting Transactions With Persons
          Who Commit, Threaten to Commit, or Support Terrorism” (Report No. 6-294-05-004-S,
          March 30, 2005)
      • Inspector General, “Quick Response Review of Vetting Procedures at USAID/West Bank
          and Gaza” (Report No. 6-294-06-001-S, June 19, 2006) (SBU)
      • Government Accountability Office, “Foreign Assistance: Recent Improvements Made, but
          USAID Should Do More to Help Ensure Aid Is Not Provided for Terrorist Activities in West
          Bank and Gaza” (GAO-06-1062R, September 29, 2006)

                                                                                               22
                                                                             APPENDIX I

Concurrent with this audit, the Regional Inspector General/Cairo audited the
USAID/West Bank and Gaza current policies, procedures and controls to comply with
Executive Order 13224 (No. 6-294-08-001-P). As part of that audit’s fieldwork, the audit
team tested recent awards from two different samples covering more than the just the three
organizations.

•   The audit team tested 62 awards from January 1, 2005, through December 31, 2006,
    consisting of all 42 prime awards and 20 randomly selected subawards from a
    universe of 202 subawards. The audit team reviewed these 62 prime and
    subawards for compliance with vetting, certifications, and contract clauses.

•   The audit team tested 89 subawards from January 1 to April 29, 2007, from a
    universe of 204 subawards. From January 1 to April 29, 2007, the mission issued no
    prime awards. The audit team reviewed these 89 subawards for compliance with the
    certification and contract clause requirements.

In 2006, the mission implemented a new process and control to ensure that subawards
included the necessary antiterrorism certifications. In order to test the effectiveness of
these new procedures, the audit team reviewed the additional 89 subawards with award
start dates from January 1 to April 29, 2007. These additional awards were selected on
a random basis from a total universe of 204 subawards obtained from the monthly
submissions by the prime awardees. Of these 89 subawards, 15 required the
antiterrorism certifications and 89 required the mandatory clauses.

We developed the universe of awards and subawards to the three organizations with the
assistance of USAID/West Bank and Gaza and verified the information against
supporting documents.

With regard to the vetting of organizations and individuals, we discussed the vetting
process with mission staff in order to understand the process and the changes in the
vetting process. We reviewed all 13 subawards to Al-Quds University, all 16 subawards
to the Islamic University in Gaza, and all 10 awards (5 prime awards and 5 subawards) to
ANERA for the period between October 2001 and April 2007. The five prime awards to
ANERA represented all prime awards during this period. In evaluating the vetting of
awards, we reviewed each award to determine (1) whether the award was to a U.S. or
non-U.S. organization or individual, (2) the type of award, (3) the period of the award,
and (4) the vetting criteria applicable during the award period. We also reviewed the
vetting request and the response to the request for both the key individuals associated
with the award, as well as the organizations themselves. From this information, we
determined whether the vetting of the organizations complied with applicable Federal
laws, Executive Order 13224, and USAID policies.

With regard to antiterrorism certifications and contract clauses, we discussed the
certification process with mission staff in order to understand the process and the
changes in the certification process. We reviewed all 13 subawards to Al-Quds
University, all 16 subawards to the Islamic University in Gaza, and all 10 awards (5 prime
awards and 5 subawards) to ANERA for the period between October 2001 and April 2007.
The five prime awards to ANERA represented all prime awards during this period. In
evaluating the antiterrorism certifications and contract clauses we reviewed the awards
against the relevant time period when the specific certification or contract clause became
a requirement. We examined procurement documentation and required clauses to verify
that the required certifications and clauses were received or included in the awards and
subawards.       From this information, we determined whether the antiterrorism
                                                                                       23
                                                                            APPENDIX I

certifications and required clauses complied with applicable Federal laws, Executive
Order 13224, and USAID policies.

In regard to the review of six statements reported in the Washington Times, we
substantiated whether the assistance cited was provided, as well as the amounts and other
details of the assistance.




                                                                                      24
                                                                                    APPENDIX II

MANAGEMENT COMMENTS


MEMORANDUM
Date:          November 1, 2007

To:            Lloyd Miller, Regional Inspector General - Cairo

From:          Howard J. Sumka, Mission Director /s/

Subject:       Audit of USAID/West Bank and Gaza’s Assistance to Al Quds University,
               Islamic University in Gaza, and American Near East Refugee Aid (Audit Report
               No. 6-294-08-00X-P)

The Mission is pleased to provide its management comments on the subject draft audit report
entitled “Audit of USAID/West Bank and Gaza’s Assistance to Al Quds University, Islamic
University in Gaza, and American Near East Refugee Aid” (ANERA). The Mission appreciates
the opportunity to comment on the draft report and clarify certain findings and statements as the
RIG prepares the final report.

The draft report includes no recommendations for further action, but it does include certain
findings and statements that the Mission believes require further clarification. These findings
and statements are addressed in the comments below:

1. The Mission provided assistance in accordance with applicable law and substantially in
accordance with its internal policies: The summary finding in the draft report states that
“USAID/West Bank and Gaza did not always provide assistance to Al Quds University and
Islamic University in Gaza in accordance with applicable federal laws, regulations and USAID
policies.” The finding, as written, could carry with it an implication that USAID/West Bank and
Gaza did on occasion provide assistance in contravention of the law. Such an implication is not
supported by the underlying facts. Congress first included language in the fiscal year 2003
appropriations bill that led to the requirement for USAID West Bank and Gaza to take all
“appropriate steps” prior to the obligation of funds to ensure assistance is not provided to or
through anyone known to be or supporting terrorist activities and to establish procedures to
carry this out. As outlined below, the Mission took appropriate steps and established
procedures after broad consultation prior to obligation of funds by it in compliance with the law.

The facts in the draft report indicate that in the four years since February of 2003 when the
appropriations language was first signed into law, Al Quds University and Islamic University in
Gaza were vetted fifteen times. This represents an average of almost four times per year. On
each occasion, no derogatory information was ever provided to the Mission on either institution.
Each university also signed the anti-terrorism certification three times over the same period.
ANERA signed the certification five times in that period. These facts indicate compliance with
the law and a strong overall compliance with the Mission’s internal policies.


                                                                                                  25
                                                                                         APPENDIX II
The draft report has noted specific cases of USAID implementing partners failing to comply with
USAID promulgated procedures and contractual requirements in their sub-obligating
agreements. The Mission, as with previous audits, accepts those factual findings and has taken
action, as noted in the companion RIG/Cairo audit report on the Mission’s implementation of
Executive Order 13224, to improve monitoring and oversight of its awardees. However, the
factual findings, similar to earlier audits of the Mission’s anti-terrorism procedures, including the
September 29, 2006 GAO report, do not support an implication that the Mission may have
provided assistance in contravention of applicable law. The fact that USAID implementing
partners did not comply on every occasion with each of the procedures that USAID put in place,
does not equate to a violation of law. USAID West Bank and Gaza’s internal procedures do not
have the force of law. The Mission requests that the summary finding in the second paragraph
of page 1 and the top of page 5 of the report state: “…USAID/West Bank and Gaza provided
assistance to Al Quds University and Islamic University in Gaza in accordance with applicable
federal laws, but could have taken additional measures to ensure compliance by USAID
contractors and grantees with USAID policies.”


2. The underlying facts are critical when analyzing cases of non-compliance with Mission
procedures on vetting: Vetting is the cornerstone of the Mission’s anti-terrorism procedures and
is also the focus of the yearly appropriations law requirement. After all, the section of the
annual appropriations law that required the Mission to develop anti-terrorism procedures is titled
“Vetting”. For this reason, the most serious finding in the draft report is that the Mission failed to
conduct vetting on two of 17 occasions when vetting was required under the Mission’s
procedures.

The draft report indicates that both instances of non-compliance occurred in 2003 and states
that “[g]iven the time lapses, we did not determine the reasons for the missing vetting.”
However, the underlying facts in each case are critical.

The first occasion was a subcontract awarded by a USAID prime awardee to Al Quds University
to carry out a food security assessment and nutritional surveillance. This subcontract was
awarded in February of 2003 (item #11 listed in Appendix III to the draft report), six months prior
to USAID promulgating its vetting procedures for the first time to all of its grantees and
contractors on August 26, 2003. The prime awardee could not have been expected to
implement vetting when no requirement was included in its agreement and it had not been
informed of the requirement. Notwithstanding, Al Quds University has been vetted seven times
since 2003 with no derogatory information being provided to the Mission.

The second award where vetting did not take place was a sub-agreement to the Islamic
University in Gaza for $10,000 (item #16 listed in Appendix IV to the draft report) issued on
August 28, 2003. This subaward was made only two days after the Mission first issued written
anti-terrorism procedures to its contractors and grantees on August 26, 2003. It would have
been impossible for any USAID contractor or grantee to have digested and developed
procedures for implementing the new guidance in two days. Furthermore, the prime contract
pre-dated the vetting requirement and included no provision that would have made the new
vetting requirement mandatory. It naturally took time for the USAID West Bank and Gaza
Mission to include a provision in each award that would make vetting a contractual requirement.
This did not happen overnight upon issuance of the new procedures. Knowing that the $10,000
sub-agreement to the university occurred two days after issuance of the new procedures is a
critical fact that explains why vetting did not occur. Despite this lapse, Islamic University in
Gaza was vetted twice prior to this subaward, and six times since, with no derogatory
information provided to the Mission.



                                                                                                   26
                                                                                      APPENDIX II
The underlying facts of the two instances of non-vetting noted in the draft report are useful to
illustrate the time lag that occurred between development of the new procedures, their
promulgation and ultimate implementation. The time lag was compounded by the authorized
departure (February 8, 2003) and ordered departure (March 16, 2003) of most Mission U.S.
direct hire staff in the lead up to the war in Iraq.

In sum, the facts demonstrate that the Mission developed procedures in compliance with the law
and implemented them in a timely manner. While complying with the law, the two occasions of
non-compliance with the Mission’s own internal policies for vetting occurred in the early rollout
stage of the policy: in the first case, prior to the procedures being transmitted to the primes; and
in the second case within the first two days of the Mission’s procedures being issued. As
indicated above, those entities needed a period of time to internalize and implement the new
procedures; expecting immediate, same-day compliance is unrealistic.

3. Anti-Terrorism Certification: The draft report also indicates that anti-terrorism certifications
were not obtained on three of 14 occasions when required under the Mission’s procedures.
While the draft report does not go into the reasons for the missing certifications, the specific
context mitigates the results.

The $10,000 sub-agreement to the Islamic University in Gaza issued on August 28, 2003
referred to above also constituted one of the three occasions of failure by a USAID contractor or
grantee to obtain an anti-terrorism certification. The requirement for the certification’s
application to grants-under-contracts (which is the case here) and grants under grants was not
clarified to all contractors and grantees until August 26, 2003. It is unrealistic to expect the
contractor to have instituted procedures to obtain the certification within 48 hours after the
guidance was issued.

A second anti-terrorism certification was not obtained in connection with an award issued in
December of 2004. The prime had consulted with USAID about the need to obtain the
certification and was informed that a new certification was not required since the award was a
follow-on to an existing award to the Islamic University in Gaza for the same purpose for which
the institution had already signed the anti-terrorism certification. As RIG notes, the Mission has
since put procedures in place to ensure that the certification is obtained when required by
Mission policy.

Here again underlying facts point to mitigating circumstances in two of the three cases identified
in the draft report related to the anti-terrorism certification. As with vetting above, the unstated
specifics of the instances documented in the draft report justifies a conclusion of substantial
compliance by the Mission with internal policies and procedures. As previously mentioned, the
Islamic University in Gaza and Al Quds University each signed the anti-terrorism certification
three times over the course of the four year-period since the certification has been required.

4. Prohibition Against Support for Terrorism Clause: The draft report indicates on page 12 that
Mission awards did not include the prohibition against support for terrorism clause in 14 of 26
awards to Islamic University in Gaza and Al Quds University. The clause reminds awardees of
their responsibility to comply with executive orders and laws that prohibit transactions with, and
provision of resources and support to, individuals and organizations associated with terrorism.

While failure of USAID partners to include the required clause in sub-awards indicated a failure
to monitor partners compliance with Mission policies (a problem which the draft report notes has
been addressed), such a failure should not be construed as a failure to comply with applicable
law as suggested by the draft report’s summary finding. Instead it does indicate that additional
monitoring was needed to ensure USAID contractors and grantees complied with USAID
policies when sub-obligating funds. As noted in the RIG’s companion audit report regarding

                                                                                                      27
                                                                                    APPENDIX II
implementation of Executive Order 13224, the Mission’s corrective actions have improved
monitoring of contractor and grantee compliance with inclusion of the prohibition against support
for terrorism clause and Mission policies.

5. Cash Clause: The draft report, on page 13, states that “USAID/West Bank and Gaza also
developed an additional clause to implement the legislated antiterrorism provision in regard to
direct cash assistance to the Palestinian Authority.” The Mission requests that this statement be
deleted. As indicated on page 11 of the September 29, 2006 GAO Report, the Mission
developed and required the cash clause after the 1998 appropriations act as an anticorruption
measure. The Mission has never included the cash clause in its anti-terrorism procedures.
With the exception of the approximately 15-month period from March 2006 until June 2007
when the Palestinian Authority was controlled by Hamas, the U.S. Government has not
considered the Palestinian Authority to be controlled by a terrorist organization. The Mission
and the GAO report both realized that during the period of Hamas control, the cash clause could
double as a means to prevent cash assistance from inadvertently being provided to the Hamas-
controlled Palestinian Authority, but that was not the reason for its development and is not the
reason for its use given the current composition of the Palestinian Authority. Since the
prohibition on direct cash assistance to the Palestinian Authority is not an anti-terrorism
measure and cannot be construed as one under the current Palestinian Authority, the Mission
requests that the RIG eliminate this statement in the final version of the report.

Similarly, two sentences later on page 13, the report asserts that the “…cash clause was a
requirement in the appropriation law...” This is not correct as a factual matter. The language
included in the yearly appropriations law since 1998, prohibits cash assistance to the
Palestinian Authority (“None of the funds appropriated…may be obligated or expended with
respect to providing funds to the Palestinian Authority.”). Nowhere in the legislation has there
been a requirement to include a cash clause in USAID contract or grant documents. The
Mission was and is in full compliance with the law to the extent that no cash is provided to the
Palestinian Authority unless a waiver is in place. The Mission requests that the quoted
language from the draft report be deleted as it does not reflect the actual requirement in the
appropriations laws.

6. Table Six: The Mission notes that, in addition to the information contained in box three of
Table Six of the draft report, ANERA was also required to sign the anti-terrorism certification five
times and did so all five times.



                                 ------------------------------------------

For the record, the Mission would like to note that it contacted RIG in the immediate aftermath
of the March 5, 2007 Washington Times article and requested that a scheduled April RIG review
of the Mission’s vetting procedures be brought forward and broadened to address the article’s
allegations. The Mission acknowledges and appreciates the thoroughness of the audit conducted
by RIG/Cairo in response to these allegations. The professionalism and cooperation of the RIG
staff during the conduct of the audit was exemplary.




                                                                                                   28
                                                                                   APPENDIX III


                              List of Subawards for Al-Quds University

                          Type of                                                  Start
     Prime Award         Subaward               Purpose             Amount         Date       End Date
    Academy for
    Educational
    Development
1   (AED) - Higher
    Education                            Local scholarships for
    Support Initiative                   1,960 students and
    (HESI)               Grant           arrears for 894 students   $2,276,586   8/16/2006    9/29/2006

                                         26 local scholarships,
                                         Improving library
2                                        resources, training,
                         In kind         equipment and books,
    AED - HESI           assistance      research proposals          $135,000    09/20/2004   11/14/2006

                                         Training provided by
                                         university information
                                         technology center to
3                                        improve skills of
                                         Palestinian information
                         Purchase        technology
    AED - HESI           Order           professionals                $15,600    1/15/2005    6/15/2005


    AMIDEAST -                           To fund the living
4   Palestinian                          stipend and tax
    Faculty                              withholdings of a PhD
    Development          Grant           student at a U.S.
    Program              scholarship     university                   $84,744    08/01/2006   08/31/2010
    Chemonics
5   International -      Memorandum
    Arkan Rule of        of              Technical and material
    Law Project          Understanding   assistance                  $110,000     09/2004      09/2007



    Nathan
    Associates/
    Management
6   Systems
    International -                      Sponsorship of
    Palestinian                          Information Technology
    Information &                        Day at university to
    Communications                       cover promotional
    Technology           Sponsorship     materials and
    Incubator            Agreement       accessories                   $2,747    12/20/2004   6/28/2005

    Associates for
    Rural
    Development -
7   Expanding                            Commodities and
    Access to                            services: furnishing of
    Quality Higher                       21 class rooms and 40
    Education            In kind Grant   lecturers' offices           $98,315     8/2/2006    9/14/2006

                                                                                               29
                                                                              APPENDIX III

                           Type of                                            Start
      Prime Award         Subaward          Purpose              Amount       Date       End Date
     CARE
     International -
     Emergency
8    Medical                         Conducting a rapid
     Assistance                      national nutritional
     Program, Phase                  survey in West Bank
     I (EMAP I)           Contract   and Gaza                      $79,439   5/31/2002   9/30/2002
                                     Conducting random
                                     cluster nutritional
9    CARE                            surveys every two
     International -                 weeks during
     EMAP I               Contract   performance period            $89,565   5/31/2002   8/31/2003
                                     Conducting a survey of
10   CARE                            services/quality of care
     International -                 at 68 maternal/child
     EMAP I               Contract   health clinics                $43,062   6/14/2002   9/30/2002
                                     Conducting a food
                                     security assessment
11   CARE                            and nutritional survey
     International -                 (FSANS) in West Bank
     EMAP I               Contract   and Gaza                     $178,500   2/12/2003   9/30/2003

     International
     Science and
     Technology
     Institute (ISTI) -
12   Micronutrient
     Operational                     To conduct an
     Strategies and                  approximation of dietary
     Technologies         Purchase   adequacy of
     program (MOST)       Order      communities in Gaza           $35,000   7/25/2005   9/16/2005

                                     To conduct an
                                     approximation of dietary
13
                                     adequacy of
                          Purchase   communities in the
     ISTI - MOST          Order      West Bank                     $35,000   7/25/2005   9/16/2005
                                                      Total =   $3,183,558




                                                                                          30
                                                                                 APPENDIX IV


                          List of Subawards for Islamic University in Gaza

                            Type of                                              Start
      Prime Award          Subaward             Purpose            Amount        Date       End Date
     Academy for
     Educational
     Development
1    (AED) - Higher
     Education
     Support Initiative   Purchase
     (HESI)               Order           Research grants            $29,500   9/20/2004    3/9/2006
2                         No written
     AED - HESI           agreement       49 local scholarships      $93,000     2003         2005
                                          In-kind assistance of
3                                         5 computers ($6,500)
                          No written      and electronic
     AED - HESI           agreement       journals ($5,455)          $11,995    3/1/2005    2/28/2006
4                         Letter of       In-kind assistance to
     AED - HESI           Agreement       purchase books               $336    9/19/2005    2/25/2006
                                          Pre-academic training
     AED -                                (research and
5    Presidential                         academic writing
     Scholarship          Purchase        skills) for PSP
     Program              Orders          scholars                    $6,354   06/29/2004   6/19/2005
     The Morganti
6    Group - Gaza                         Soil testing for GRWC
     Regional Water                       route and facilities
     Carrier project      Contract        installations              $84,099   2/14/2006    5/1/2006
     CHF International
     - Palestinian
7    American                             Provide concept
     Recreation and                       designs for public
     Conservation                         parks by architecture
     Services Project     Contract        students                    $9,000    6/7/2005    8/13/2005
     Associates for
     Rural
     Development -
8    Emergency
     Assistance           Fixed           Installation of 60
     through              Obligation      desalination units in
     Palestinian NGOs     Grant           Gaza schools              $239,392    6/2/2003    May 2004
     CARE                                 In-kind assistance for
     International -                      provision of
     Emergency                            emergency medical
9    Medical                              disposables and
     Assistance           Memorandum      pharmaceuticals to
     Program, Phase       Of              local and regional
     III (EMAP III)       Understanding   health facilities          $12,869    4/1/2004    3/31/2005
                                          In-kind assistance for
                                          delivery of
10   CARE                 Memorandum      pharmaceuticals and
     International -      Of              medical supplies to an
     EMAP III             Understanding   IUG health clinic           $2,713    5/1/2006    9/30/2007

                                                                                             31
                                                                                APPENDIX IV

                              Type of                                           Start
      Prime Award            Subaward          Purpose            Amount        Date       End Date
     IBM Global
     Business
     Services -
     Improving
11   Primary Health
     Care for
     Palestinian                         Immunization
     Families (Maram                     coverage assessment
     Project)               Grant        for Gaza                   $80,000    3/7/2003     5/5/2003
     Chemonics
     International -
     Civil Society and
12   Democracy
     Strengthening
     Project                Simplified   Project managers
     (Tamkeen)              Grant        training program           $92,756   12/15/2002   8/14/2003
     Chemonics
13   International -        Simplified   Project managers
     Tamkeen                Grant        training program          $104,640    2/1/2004    9/30/2004
     Chemonics
14   International -        Simplified   Project managers
     Tamkeen                Grant        training program          $112,899   12/1/2004    7/31/2005
                                         Promoting voter
                                         education among the
15   Chemonics              Fixed        students in support of
     International -        Obligation   the second round of
     Tamkeen                Grant        local elections            $12,440   3/15/2005    5/14/2005

     Development
     Alternatives, Inc. -                Support of
16   Market                              international
     Alternatives           Letter of    engineering
     Program                Agreement    conference in Gaza         $10,000   8/28/2003    12/31/2003
                                                       Total =    $901,993




                                                                                            32
                                                                                       APPENDIX V


                     List of Awards and Subawards for American Near East Refugee Aid

        Prime         Type of Award
        Award          or Subaward              Purpose                 Amount        Start Date    End Date

                                      Installation of water
                      Cooperative     distribution system at Ein
1    USAID            Agreement       Sultan                               $87,800     3/5/2002     4/30/2003
                                      Community services work
                                      under Job Opportunities
                      Cooperative     through Basic Services
2    USAID            Agreement       (JOBS) program                     $7,893,348   8/30/2002     9/30/2007
     Camp
     Dresser &                        Technical and logistical
     McKee                            support for emergency
3    International    Sub-contract    assessment in Gaza Strip             $12,000    7/13/2003     9/30/2003

                                      Administration and
4    IBM              Sub-contract    procurement                         $676,452    8/25/2003     4/30/2005

                                      Conducting agricultural
5    USAID            Grant           workshops                           $192,500    9/12/2003     6/30/2005
     Camp
     Dresser &                        Institutional planning and
     McKee                            implementation of the Beit
6    International    Sub-contract    Furik-Beit Dajan well                $43,873    12/01/2003    1/31/2004
                                      Community services work
                                      under the Palestinian
                      Cooperative     Infrastructure for Needed
7    USAID            Agreement       Employment (PINE) program          $3,700,000   9/28/2004     6/30/2007
                                      Technical assistance to John
                                      Snow International in the
     John Snow                        areas of procurement and
     International                    field coordination under the
     Research &                       Hanan program for improving
     Training                         quality of primary healthcare
8    Institute        Sub-grant       for Palestinians                   $2,014,375   1/18/2005     10/31/2007
                                      Small infrastructure activities
                                      under the Emergency Water
                      Cooperative     and Sanitation (EWAS)
9    USAID            Agreement       Project                           $11,839,816   9/27/2005     9/26/2008
                                      Greenhouse rehabilitation for
                                      high value crops in the
10   ACDI-VOCA        Sub-grant       Northern West Bank                  $756,623    4/25/2007     7/15/2008
                                                             Total = $27,216,787




                                                                                                   33
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
